March 27, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Arizona Improperly Claimed Federal Reimbursement for Medicare Part B
               Premiums Paid on Behalf of Medicaid Beneficiaries (A-09-11-02009)


Attached, for your information, is an advance copy of our final report on Arizona’s claims for
Federal reimbursement for Medicare Part B premiums that it paid on behalf of Medicaid
beneficiaries under the buy-in program. We will issue this report to the Arizona Health Care
Cost Containment System within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-11-02009.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                         90 - 7 T H S TREET, S UITE 3-650
                                                                          S AN F RANCISCO , CA 94103
March 29, 2012

Report Number: A-09-11-02009

Mr. Thomas J. Betlach
Director
Arizona Health Care Cost Containment System
801 East Jefferson Street
Phoenix, AZ 85034

Dear Mr. Betlach:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Arizona Improperly Claimed Federal Reimbursement for
Medicare Part B Premiums Paid on Behalf of Medicaid Beneficiaries. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email at
Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-11-02009 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Thomas J. Betlach


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




ARIZONA IMPROPERLY CLAIMED
  FEDERAL REIMBURSEMENT
    FOR MEDICARE PART B
PREMIUMS PAID ON BEHALF OF
  MEDICAID BENEFICIARIES




                       Daniel R. Levinson
                        Inspector General

                          March 2012
                         A-09-11-02009
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Section 1843 of the Social Security Act (the Act) allows State Medicaid programs to enter into
an arrangement with the Centers for Medicare & Medicaid Services (CMS) known as the buy-in
program. The buy-in program allows a participating State Medicaid program to enroll certain
dual eligibles (individuals who are entitled to both Medicare and some form of Medicaid
benefits) in the Medicare Part B program (Part B) and to pay the monthly premiums on behalf of
those individuals. The State may then claim the monthly premium expenditures for Federal
reimbursement.

A State may claim Federal reimbursement for the Part B premiums paid on behalf of an
individual who meets the eligibility requirements for a Qualified Medicare Beneficiary (QMB),
Specified Low­Income Medicare Beneficiary (SLMB), or Qualifying Individual (QI) or was a
recipient or deemed a recipient of money payments under certain titles of the Act, including
Title IV­A and Title XVI. In this report, we refer to these eligibility categories as “the specified
categories.” A State may not claim Federal reimbursement for an individual who does not meet
the eligibility requirements for at least one of the specified categories.

In Arizona, the Arizona Health Care Cost Containment System (State agency) administers the
Medicaid program, including the State’s buy-in program. The State agency is responsible for
establishing internal procedures and systems to identify individuals eligible for the buy-in
program and communicating this information to CMS. The State agency is also responsible for
ensuring the accuracy of the eligibility codes assigned to individuals. These codes group
individuals in the buy-in program into eligibility categories and identify individuals whose
Part B premiums are eligible or ineligible for Federal reimbursement.

For the period October 1, 2007, through September 30, 2009, the State agency claimed for
Federal reimbursement approximately $304 million for Part B premiums paid under the buy-in
program. We reviewed $49 million in Part B premiums that the State agency claimed for
individuals assigned an eligibility code that indicated the premiums were not eligible for Federal
reimbursement. We reviewed a stratified random sample of 200 monthly Part B premium
payments to determine whether the premiums were allowable for Federal reimbursement.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal requirements
when claiming Federal reimbursement for Part B premiums that it paid on behalf of Medicaid
beneficiaries.

SUMMARY OF FINDING

The State agency did not always comply with Federal requirements when claiming Federal
reimbursement for Part B premiums that it paid on behalf of Medicaid beneficiaries. Of the
200 sampled payments, 114 complied with Federal requirements. However, 86 sampled



                                                  i
payments totaling $5,877 (Federal share) did not comply with Federal requirements.
Specifically, the State agency claimed Federal reimbursement for Part B premiums paid on
behalf of individuals who did not meet the eligibility requirements of any of the specified
categories.

The State agency submitted unallowable claims because, according to State agency officials, it
believed that CMS guidance permitted claiming of Federal reimbursement for Part B premium
payments for individuals who were not eligible for any of the specified categories. However,
after discussions with CMS, we concluded that this guidance did not permit Federal
reimbursement to be claimed for Part B premium payments for individuals who were not eligible
for any of the specified categories. Based on our sample results, we estimated that the State
agency improperly claimed $13,052,176 in Federal reimbursement for ineligible Part B
premiums.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $13,052,176 (Federal share) for unallowable Part B
       premiums claimed and

   •   review claims for Part B premiums paid before our audit period and refund the Federal
       share of any unallowable amounts claimed.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our
recommendations. The State agency said that CMS’s letters to the State Medicaid directors
dated November 24, 1997, and December 14, 2000 (CMS letters), entitled the State agency to
claim Federal reimbursement for Part B premiums paid on behalf of individuals who did not
meet the eligibility requirements for QMBs, SLMBs, or QIs. The State agency also said that
because the Federal regulations at 42 CFR § 431.625(d)(1) had not been updated to include the
QMB, SLMB, and QI eligibility categories, the regulations “cannot constitute a universal rule”
governing eligibility for Federal share and thus cannot be read as contradicting the CMS letters.
Finally, the State agency said that even if it were not authorized to claim Federal reimbursement
for the Part B premiums paid on behalf of individuals who did not meet the eligibility
requirements of the specified categories, it should not be required to refund the amounts at issue
because there has been little to no real adverse financial impact on the Federal Government.

The State agency’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

The CMS letters acknowledge that States may pay, at their option, the Part B premiums for
individuals who are eligible for full Medicaid benefits but are not QMBs, SLMBs, or QIs.
However, these letters do not indicate that Federal reimbursement is available for Part B



                                                ii
premiums paid on behalf of all such individuals. The Act and Federal regulations provide that
Federal reimbursement is available only for Part B premiums paid on behalf of individuals who
meet the QMB, SLMB, or QI eligibility requirements or are recipients or deemed recipients of
money payments under relevant provisions of the Act. Although the Federal regulations at
42 CFR § 431.625(d)(1) have not been updated to address the QMB, SLMB, and QI eligibility
categories, the regulations are still applicable to other eligibility categories. In addition, the State
agency should not interpret the CMS letters as establishing standards contrary to Federal law and
regulations because Federal law and regulations take precedence. Finally, the State agency was
required to follow the language of the Act and Federal regulations regardless of the financial
impact on the Federal Government.

Nothing in the State agency’s comments caused us to revise our finding or recommendations.




                                                  iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Quarterly Medicaid Statement of Expenditures for the
                 Medical Assistance Program..........................................................................1
              Medicaid’s Role in Paying Medicare Part B Premiums ......................................1
              Administration of the Buy-In Program ................................................................2
              Arizona’s Buy-In Program ...................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDING AND RECOMMENDATIONS ...............................................................................5

          FEDERAL REQUIREMENTS ........................................................................................5

          PART B PREMIUM PAYMENTS NOT ELIGIBLE FOR
            FEDERAL REIMBURSEMENT ...............................................................................6

          RECOMMENDATIONS .................................................................................................6

          STATE AGENCY COMMENTS ....................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iv
                                          INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Arizona, the Arizona Health Care Cost
Containment System (State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. States
with a lower per capita income relative to the national average are reimbursed a greater share of
their costs. States with a higher per capita income are reimbursed a lesser share. By law, the
FMAP may not be lower than 50 percent. Although FMAPs are adjusted annually for economic
changes in the States, Congress may increase FMAPs at any time.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, enacted
February 17, 2009, authorized the States to receive higher FMAPs. The FMAPs for Arizona’s
Medicaid expenditures for fiscal years 2008 and 2009 ranged from 66.20 percent to
75.93 percent.

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

States claim Medicaid expenditures and the associated Federal share on the Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program. The
Form CMS-64 is an accounting statement that the State, in accordance with 42 CFR § 430.30(c),
must submit to CMS within 30 days after the end of each quarter. Each quarter’s Form CMS-64
shows the disposition of Medicaid funds used to pay for medical and administrative expenditures
for the quarter being reported, as well as any prior-period adjustments.

Medicaid’s Role in Paying Medicare Part B Premiums

Section 1843 of the Act allows State Medicaid programs to enter into an arrangement with CMS
known as the buy-in program. The buy-in program allows a participating State Medicaid
program to enroll certain dual eligibles (individuals who are entitled to both Medicare and some
form of Medicaid benefits) in the Medicare Part B program (Part B) and to pay the monthly
premiums on behalf of those individuals. The State may then claim the monthly premium
expenditures for Federal reimbursement at the applicable FMAP. The buy-in program has the




                                                1
effect of transferring part of the medical costs for eligible individuals from the federally and
State-funded Medicaid program to the federally funded Medicare program.

A State may claim Federal reimbursement for the Part B premiums paid on behalf of an
individual who meets the eligibility requirements for a Qualified Medicare Beneficiary (QMB),
Specified Low-Income Medicare Beneficiary (SLMB), or Qualifying Individual (QI) 1 or was a
recipient or deemed a recipient of money payments under certain titles of the Act, including
Title IV­A and Title XVI. 2 In this report, we refer to these eligibility categories as “the specified
categories.” A State may not claim Federal reimbursement for the Part B premiums paid on
behalf of an individual who does not meet the eligibility requirements for at least one of the
specified categories.

Pursuant to sections 1902(a)(10)(E) and 1905(p)(1) and (2) of the Act, the eligibility
requirements for QMBs, SLMBs, and QIs are as follows:

       •   QMB: An eligible individual is entitled to Medicare Part A benefits, has income that
           does not exceed 100 percent of the Federal poverty level, and has resources that do not
           exceed twice the limit for SSI eligibility.

       •   SLMB: An eligible individual is entitled to Part A benefits, has income above
           100 percent but less than 120 percent of the Federal poverty level, and has resources that
           do not exceed twice the limit for SSI eligibility.

       •   QI: An eligible individual is entitled to Part A benefits, has income of at least
           120 percent but less than 135 percent of the Federal poverty level, has resources that do
           not exceed twice the limit for SSI eligibility, and is not otherwise eligible for Medicaid. 3

Administration of the Buy-In Program

At the Federal level, CMS has overall responsibility for administering the buy-in program. CMS
maintains a master file that contains information on individuals eligible for enrollment in the
buy-in program. CMS uses updates provided by the States to amend the buy-in master file.
CMS uses the buy-in master file to prepare monthly billing notices for each State’s Part B
premium liability and to identify those premiums eligible to be claimed by each State for Federal
reimbursement.




1
    Pursuant to section 1933(d) of the Act, the FMAP is 100 percent for QIs.
2
 Title IV-A of the Act covers the Temporary Assistance to Needy Families program. Title XVI of the Act covers
supplemental security income (SSI) for the aged, blind, and disabled.
3
 In accordance with its State plan, Arizona does not consider resources when determining QMB, SLMB, or QI
eligibility.


                                                           2
Arizona’s Buy-In Program

The State agency administers Arizona’s buy-in program and is responsible for enrolling certain
dual eligibles in the program and paying the monthly Part B premiums on behalf of the
individuals. Those responsibilities include establishing internal procedures and systems to
identify individuals eligible for the buy-in program, communicating this information to CMS,
and coordinating with CMS on individual cases. The State agency is also responsible for
ensuring the accuracy of the eligibility codes assigned to individuals and is required to routinely
update these codes in CMS’s buy-in master file. These codes group individuals in the buy-in
program into eligibility categories and identify individuals whose Part B premiums are eligible
or ineligible for Federal reimbursement.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements
when claiming Federal reimbursement for Part B premiums that it paid on behalf of Medicaid
beneficiaries.

Scope

For the period October 1, 2007, through September 30, 2009, the State agency claimed for
Federal reimbursement approximately $304 million ($223 million Federal share) for Part B
premiums paid under the buy-in program. We reviewed $49 million in Part B premiums that the
State agency claimed for individuals assigned an eligibility code that indicated the premiums
were not eligible for Federal reimbursement.

Our objective did not require a review of the State agency’s overall internal control structure.
Therefore, we limited our review of internal controls to obtaining an understanding of the State
agency’s policies and procedures for identifying and reporting to CMS those individuals eligible
for the buy­in program, recording and paying Part B premiums billed by CMS, and claiming
Federal reimbursement.

We conducted fieldwork at the State agency in Phoenix, Arizona, from December 2010 to
April 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed applicable portions of the Arizona State Medicaid plan and State agency
        policies and procedures related to the buy-in program;

   •    interviewed CMS and State agency officials;


                                                 3
    •    obtained and analyzed the State agency’s electronic data files of monthly Part B
         premiums that the State agency paid under the buy-in program for the months
         October 2007 through December 2009; 4

    •    compared the State agency’s electronic data files with CMS’s monthly billing notices, the
         State agency’s payment records, and the State agency’s claims for Federal reimbursement
         on the Form CMS-64;

    •    obtained CMS’s electronic billing files for Part B premiums billed to the State agency for
         the months January through October 2010; 5

    •    adjusted the Part B premium payment amounts to reflect all prior-period deletions as of
         October 2010 for those premiums with an eligibility code that indicated the premiums
         were not eligible for Federal reimbursement;

    •    identified a sampling frame of 511,741 monthly Part B premium payments for which the
         State agency assigned an eligibility code that indicated the premiums were not eligible
         for Federal reimbursement, totaling $49,129,853 ($34,903,558 Federal share), but
         nevertheless claimed on the Form CMS-64; 6

    •    selected from the sampling frame a stratified random sample of 200 monthly Part B
         premium payments totaling $19,198 ($13,619 Federal share);

    •    obtained eligibility documentation for the individuals associated with the 200 sampled
         payments and reviewed:

             o    documents from the State agency’s eligibility systems to identify whether the
                  State agency had determined that the individuals were eligible for Medicaid and
                  enrolled in Medicare Part A,

             o    the State agency’s income worksheets and eligibility systems to determine
                  whether the individuals met QMB, SLMB, or QI eligibility requirements, and

             o    documents from the State agency’s eligibility systems to determine whether the
                  individuals were recipients or deemed recipients of money payments under
                  relevant provisions of the Act;

    •    adjusted the sampled payments to reflect all prior-period adjustments as of October 2010;
         and

4
  We obtained files of Part B premiums paid after our audit period to identify any adjustments and deletions that
applied to Part B premiums claimed during our audit period. Deletions are transactions that remove individuals
from the buy-in program.
5
 We obtained files of Part B premiums paid after our audit period to identify any adjustments and deletions that
applied to Part B premiums claimed during our audit period.
6
 We calculated the Federal share by multiplying the premium amounts by the lowest applicable FMAPs for the
quarters in which the premiums were claimed.


                                                          4
    •   estimated the Federal shares of the State agency claims for the unallowable monthly
        Part B premium payments using the lowest FMAPs applicable for the quarters in which
        those premiums were claimed.

See Appendix A for our sample design and methodology and Appendix B for our sample results
and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                              FINDING AND RECOMMENDATIONS

The State agency did not always comply with Federal requirements when claiming Federal
reimbursement for Part B premiums that it paid on behalf of Medicaid beneficiaries. Of the
200 sampled payments, 114 complied with Federal requirements. However, 86 sampled
payments totaling $5,877 (Federal share) did not comply with Federal requirements.
Specifically, the State agency claimed Federal reimbursement for Part B premiums paid on
behalf of individuals who did not meet the eligibility requirements of any of the specified
categories.

The State agency submitted unallowable claims because, according to State agency officials, it
believed that CMS guidance permitted claiming of Federal reimbursement for Part B premium
payments for individuals who were not eligible for any of the specified categories. However,
after discussions with CMS, we concluded that this guidance did not permit Federal
reimbursement to be claimed for Part B premium payments for individuals who were not eligible
for any of the specified categories. Based on our sample results, we estimated that the State
agency improperly claimed $13,052,176 in Federal reimbursement for ineligible Part B
premiums.

FEDERAL REQUIREMENTS

Pursuant to sections 1902(a)(10)(E), 1903(a)(1), and 1905(a) and (p)(3) of the Act and Federal
regulations (42 CFR § 431.625(d)(1) and (2)), 7 Federal reimbursement is available only for
Part B premiums paid on behalf of individuals who meet the QMB, SLMB, or QI eligibility
requirements or are recipients or deemed recipients of money payments under relevant
provisions of the Act.




7
 The regulations at 42 CFR § 431.625 have not been amended since 1988 and do not mention QMBs, SLMBs, or
QIs. Nevertheless, the Act controls, and Federal reimbursement is available for premium payments made on their
behalf.


                                                       5
PART B PREMIUM PAYMENTS NOT ELIGIBLE FOR
FEDERAL REIMBURSEMENT

For 86 sampled payments totaling $5,877 (Federal share), the State agency claimed Federal
reimbursement for Part B premiums paid on behalf of individuals who did not meet the
eligibility requirements of any of the specified categories. We calculated the Federal shares of
the State agency claims for the unallowable Part B premiums using the lowest FMAPs applicable
for the quarters in which those premiums were claimed. Based on our sample results, we
estimated that the State agency improperly claimed $13,052,176 in Federal reimbursement for
ineligible Part B premiums.

Most of the individuals whose Part B premiums were ineligible for Federal reimbursement had
incomes that exceeded amounts specified in the QMB, SLMB, and QI eligibility requirements and
were not recipients or deemed recipients of money payments under relevant provisions of the Act.
The State agency submitted unallowable claims because, according to State agency officials, it
believed that enclosures in CMS’s letters to the State Medicaid directors dated
November 24, 1997, and December 14, 2000 (CMS letters), permitted claiming of Federal
reimbursement for Part B premiums for dual eligibles who did not meet the eligibility
requirements of any of the specified categories. However, based on discussions with CMS, we
concluded that the CMS guidance did not permit claiming of Federal reimbursement for Part B
premium payments for individuals who were not eligible for any of the specified categories. 8

RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government $13,052,176 (Federal share) for unallowable Part B
        premiums claimed and

    •   review claims for Part B premiums paid before our audit period and refund the Federal
        share of any unallowable amounts claimed.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our
recommendations. The State agency said that the CMS letters entitled the State agency to claim
Federal reimbursement for Part B premiums paid on behalf of individuals who did not meet the
eligibility requirements for QMBs, SLMBs, or QIs. The State agency also said that because the
Federal regulations at 42 CFR § 431.625(d)(1) had not been updated to include the QMB,
SLMB, and QI eligibility categories, the regulations “cannot constitute a universal rule”
governing eligibility for Federal share and thus cannot be read as contradicting the CMS letters.
Finally, the State agency said that even if it were not authorized to claim Federal reimbursement
for the Part B premiums paid on behalf of individuals who did not meet the eligibility

8
  CMS issued a section 1115 waiver, effective October 22, 2011, that allows the State agency to claim for Federal
reimbursement the Part B premiums for certain dual eligibles who do not meet the eligibility requirements of any of
the specified categories.


                                                         6
requirements of the specified categories, it should not be required to refund the amounts at issue
because there has been little to no real adverse financial impact on the Federal Government.

The State agency’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

The CMS letters acknowledge that States may pay, at their option, the Part B premiums for
individuals who are eligible for full Medicaid benefits but are not QMBs, SLMBs, or QIs.
However, these letters do not indicate that Federal reimbursement is available for Part B
premiums paid on behalf of all such individuals. The Act and Federal regulations provide that
Federal reimbursement is available only for Part B premiums paid on behalf of individuals who
meet the QMB, SLMB, or QI eligibility requirements or are recipients or deemed recipients of
money payments under relevant provisions of the Act. Although the Federal regulations at
42 CFR § 431.625(d)(1) have not been updated to address the QMB, SLMB, and QI eligibility
categories, the regulations are still applicable to other eligibility categories. In addition, the State
agency should not interpret the CMS letters as establishing standards contrary to Federal law and
regulations because Federal law and regulations take precedence. Finally, the State agency was
required to follow the language of the Act and Federal regulations regardless of the financial
impact on the Federal Government.

Nothing in the State agency’s comments caused us to revise our finding or recommendations.




                                                   7
APPENDIXES
                                                                                                        Page 1 of 2


                     APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of the monthly Medicare Part B (Part B) premium payments that the
Arizona Health Care Cost Containment System (State agency) claimed for Federal
reimbursement for the audit period (October 1, 2007, through September 30, 2009).

SAMPLING FRAME

The sampling frame consisted of 511,741 monthly Part B premium payments with a buy-in
eligibility code that identified the premiums as not eligible for Federal reimbursement. These
payments represented either payments on behalf of a beneficiary who had ongoing eligibility for
the buy-in program or a beneficiary who had been added to the buy-in program (addition). The
State agency claimed $49,129,853 in monthly Part B premiums and received at least
$34,903,558 1 in Federal reimbursement for these payments.

SAMPLE UNIT

The sample unit was a monthly Part B premium payment for a beneficiary.

SAMPLE DESIGN

We used a stratified random sample. We stratified the sampling frame into two strata:
(1) monthly Part B premium payments with a transaction code indicating that the individuals had
ongoing eligibility and (2) monthly Part B premium payments with transaction codes indicating
additions to the buy-in program.

                                                                           Value of
                                             No. of Premium               Premium
    Stratum         Description                Payments                   Payments 2            Federal Share
       1         Ongoing eligibility                  447,746               $43,004,383            $30,578,128
       2         Additions                             63,995                 6,125,470              4,325,430
     Total                                            511,741               $49,129,853            $34,903,558

SAMPLE SIZE

We selected 100 sample units from each stratum, resulting in a total sample size of 200 monthly
Part B premium payments.




1
 We calculated the Federal share by multiplying the premium amounts by the lowest applicable Federal medical
assistance percentages (FMAP) for the quarters in which the premiums were claimed.
2
    We adjusted the premium payment amounts to reflect all prior-period deletions as of October 2010.
                                                                                     Page 2 of 2


SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General (OIG), Office of Audit Services (OAS), statistical
software to generate 100 random numbers for each stratum.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each stratum. After generating 100 random
numbers for each stratum, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We calculated the Federal share by multiplying the premium amounts by the lowest applicable
FMAPs for the quarters in which the premiums were claimed. We used the OIG/OAS statistical
software to estimate the Federal reimbursement for the unallowable Part B premium payments.
                     APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                       Sample Results by Stratum

                                                                                      Value of
                              Value of                       Value of    No. of      Unallowable
        Sampling               Frame                          Sample   Unallowable    Premium
         Frame                (Federal         Sample        (Federal   Premium       Payments
Stratum    Size                Share) 1         Size          Share) 2  Payments   (Federal Share)
   1      447,746            $30,578,128         100            $6,862     45               $3,089
   2       63,995               4,325,430        100             6,757     41                2,788
 Total    511,741            $34,903,558         200           $13,619     86               $5,877


                          Estimates of Unallowable Premium Payments
                      (Limits Calculated for a 90-Percent Confidence Interval)

                                  Point estimate                  $15,614,632
                                  Lower limit                      13,052,176
                                  Upper limit                      18,177,089




1
 We calculated the Federal share by multiplying the premium amounts by the lowest applicable FMAPs for the
quarters in which the premiums were claimed.
2
 We adjusted the premium payment amounts to reflect all prior-period adjustments and deletions as of
October 2010.
                                                                                                            Page 1 of 4


                       APPENDIX C: STATE AGENCY COMMENTS


    Janice K. Hrc,",'er, Conrnor 

    Thomas J . 8t>llat h, DireclOr 

    IJI)/ r""Je./ftr_ . 1'h«~i1i, .tZ8S(}JJ                                 AHC(CS
    PO&X 15520, Ph.:>< ~a. Ai 85001
    Piton<.   6(}2 ~ 17· J Of)(}

    ,"",,,,,,,,""cc<'i<'"
                                                                0". first co.... lsytnJ. r " ""lilt Mn
                                                          AAtzow, HEAlTH   C~   COST COOTAlNMI::NT SYSTEM



February 14.201 2

Ms. Lori A. Ahlstrand
Regional Inspector General for Audit Services
Region IX
Office of Inspector General
90 - 7'~ Street, Suite 3-650
San Francisco, CA 94103

RE: O I G Repo r t Number A-09· I I-02009

Dear Ms, Ahlstrand:

Thank you for the opportunity to review and coouncn! on the U.S. Department of Health and
Human Services, Office of Inspector General draft report entilkd "Arizona Improperly Claimed
Federal Reimbursement fo r Medicare Part B Premiums Paid on Behalf of Medicaid
Bcndiciarics." We appreciate the efforts and professionalism of the 010 audit learn of Lisa
Sivongxay, Troy Butcher and Joannalyn Agbayani . We believe they made an etlorl to
understand the AHCCCS Part B Premium Buy-In process and the underlying reasons for how
and why the premiums were claimed.

The following are the responses to the two recommendations:

Recommendation I: refund to the Federal Government S 13,052,176 (Federal Share) for
unallowable Pari B premiums claimed

Response: We do not concur and assert that Arizona is entitled to and appropriately claimed
Federal Financial Participation (FFP) for the Pari B premiums subject to recommendation I.

This asserlion is based on the following:

Arizona claimed Pan B Premiums paid for dual eligible members who qualify for Medicaid
under section 1903(f)(4)(C) of the Social Security Act (SSA), 42 U.s.c. § 1396b(f)(4XC{
Arizona is entitled to FFP for the individuals in question under the terms of IWO separate State




1 These dual eligible individuals are enrolled in the AriZona Long Term Care System with
income up to 300 percent of the FBR who arc also eligible for Medicare, but do not qualify as a
QMO, SLMB or 01; are eligible for Medicaid under a mandatory or optional Title XIX coverage
group for the aged, blind, or disabled (SSI-MAO); arc eligible for continued coverage under 42
CFR 435. 1003 ; or are in the guaranteed enrollment period described in 42 CFR 435.212 and the
State was paying their Pari B premium before eligibility terminated.
                                                                                                  Page 2 of 4




Ms. Lori A. Ahlstrand
February 14, 2012
Page 2


Medicaid Directors Lcuers~ (SMDLs) issued by the Centers for Medicare and Medicaid Services
(eMS) on November 24, 1997 Ilnd Dect:mbcr 14, 2000. These letters provide that, ,at the State's
option, Medicare cost-sharing is available for individuals eligible lor both Medicaid and
Medicare, but whose income exct:<:ds 100% of the Federal Poverty Level (FPL).

The first lener, issued by the Health Care Financing Administration (HCFA) on November 24,
1997, lists " Non-QMBs" as a category ofdual eligibles for which FFP is available for the cost of
Medicare Pan B premiums. &e Letter from Sally K. Richardson, HCFA, to Medicaid Directors
(Nov. 24, 1997). The [997 ktter expressly SlaleS that for non-QMBs, "[p]ayment of Medicare
Pan B premiums is optional. FFP equals FMAP:' /d. 2 (emphasis added). Three years later,
on December 14, 2000, HCFA issut::d another SM DL again advising States that FFP is available
for Part B premiums paid for non-QMB dual eligibles. See Timothy M. Westmoreland, HeFA,
to Slate Medicaid Directors (Dec. 14, 2000). In defining "Medicaid Only Dual Eligibles (Non
Ql\ffi. SLMB. QDWI, Q I-l, or QI-2):' the 2000 lener clarifies that " [pJaymenr by Medicaid of
Medicare Part B premiums is a Statt:: option .... FFP equals FMAP.'" /d. at 4 7 (emphasis
added). Taken together, the two leners expressly infoffil States that FFP is available for
Medicare Part B premium payments made for dual eligibles who are not QMBs, SLMBs,
Qualified Disabled and Working Individuals (QDWls), or QI-Is.

Arizona j ustifiably relied upon the two leiters as authority for claiming FFP for the cost of
Medicare Part B premiums for the dual eligibles coded as MAO. Arizo na began using the " M "
code for dual eligibles for whom the State paid Part B premiums in June 1998, after HCF A
issucd the first State Medicaid Directors Letter clarifying that FFP is available lor payment of
such premiums for non-QMBs. Arizo na should nOI be penalizcd for taking action that eMS's
o·wn guidance had apparently authorized.

Additionally, subsequent to the start of this audit, CMS has asserted that Arizona's FFP claim for
Part B premi ums subject to this finding is not in accordance with 42 C.F.R. § 43 1.625(dX I). and
sections 110 and 180 or the Slate Buy-in Manual, which prohibit FFP for state payment of Part 8
premiums for non-cash MAO ind ividuals. It is inappropriate to read these provisions so broadly.

The regulation, 42 C.F. R. § 431.625(dXI), provides that "FFP is not available in Statc
expenditures for Mt-dicarc Part B premiums unless the recipients receive money payments under
the rSocial Security] Act," subject to certain exceptions not relevant here, see id §
431.625(d)(I),(2). This language, which dates back to 1969,3 cannot be read literally. As you
know, Congress subsequently created the QMB, SLMB, QT-l , and other catcgorics cxpanding




2 Copies of both letters were previously provided to OIG. Please let us know if you would like
additional copies of those State Medicaid Director Letters.
3 Suhsection (d)(I ) of the current regulation had becn codified at 45 C.F.R. § 249.41(c)(i), which
provided as follows: "There will be no Federal financial participation in the monthly insurance
premium under {Medicare], part B ... which the ... State pays on behalfofnonmoney payment
individuals eligible to receive {Medicaid]:' 34 Fed. Reg. 1324 (Jan. 28, 1969).
                                                                                                  Page 3 of 4




Ms. Lori A. Ahlstrand
F~bruary 14, 2012
Page 3


FFP for Part B premiums paid for individuals in addition to those receiving cash assistance.~
There is no doubt that HP is available for payment of Part D premiums for QMBs, SLMBs, and
QI-1s. See SSA § 1902(a){IO)(E), 42 USC. § 1396a(3)( I0)(£). Nevertheless, 42 C.F.R. §
431.625(d)(I) has not been amended to recognize this. Thus, 42 C.F.R. § 431.625(d)(J) cannot
constitute a universal rule governing FFP eligibility for Slate payment of Part B premiwns. It
therefore should not be read as contradicting the SMDLs, which clarify that FFP is available for
dual eligibles such as those al issue in Recommendatlon I.

Similarly, sections 110 and 180 of the State Buy-In Manual should not be read to prohibit FFP
for Pan B premiums for the dua l eligibles in question here. Section 110 of the Buy-In Manual
provides that only "a cash assislance recipient, a deemed cash recipient, a [QMl3], or a [SLMI3] .
. . is subject to the Federal matching fonnula." This section of the Buy.ln Manual was last
updated and published in 1996. Section 110 is plainly incomplete. It does nOi list QI· ls as
individuals eligible for cQSHharing because Congress did not amend the Medicaid statute to
make FFP available for QI-Is until the following year. See Balanced Budget Act of 1997, Pub.
L. No. 105-33. § 4732(a), 11 I Stat. 251 , 520 (1997)(amending SSA § 1902(a)(IOXE), 42 U.s.C.
§ 1396a(a)(10){E), 10 add clause (iv». Like the regulation discussed above, section I \0 does not
comprehensively list every category of recipient e ligible for FFP relating to State payment of
Pan B premiums.

State Buy-In Manual Section 180 also fails to provide a universal rule governing when FFP is
available for Part B premiums paid by the State. This section does not even identifY the specific
categories of dual eligibles listed in section 110 for whom such FFP is available. Instead, section
180 asserts gencrally that non-cash MAO rccipients do not "qualify fo r Federal matching;'
which, as shown above, is clearly inco rrect. Thus, neither 42 U.S.c. § 431.625(d)(l), nor
sections 110 and 180 of the State Buy-In Manual can be read as comprehensively defining the
dual eligible categories eligible for HP. They certainly cannot provide a basis for disregarding
the explicit guidance in the SMDLs, and denying Federal matching for the dual eligibles at issue
here.

Finally, even if CMS concludes that Arizona was not autborized to receive FFP for its Part B
premium payments for the non-cash MAO individuals, CMS still ought to allow the claims as a
matter of fairness and equity. Absent the availability of FFP (which the SMDLs appeared to
authorize), Arizona would not have paid the Part B premiums on behalf of these individuals, who
were Medicaid-eligible by reason of the special income standard applicable to persons who meet
the institutional level ofcate requirement . See SSA § 1903(f)(4)(C), 42 U.S.C. § 1396b(f)(4)(C)
(special income limit as an exception to the limitations on FFP). Instead, these persons would
havc been expected to pay the premiums themselves from their income, which would, at a
minimum. exceed 120 percent of the FPl, and could be as high as 300 percent of the Social
Security Income (SSI) income level. This ordinarily would not have imposed a financial burden
for the individuals because the amounts expended for Pan B premiums would generally qualifY
as incurred medical expenses that would be deducted from income in the post-eligibility income

4 See Omnibus Budget Reconciliation Act of 1986, Pub. L. No. 99-509, § 9403(a), 100 Stat.
! 874 (1986) (amending SSA § 1902(a)( 10), 42 U.S.C. § 1396a(a)(IO) to add subparagraph (E».
                                                                                                    Page 4 of 4




Ms. Lmi A. Ahbtnmd
February 14,2012
Page 4


determination. See 42 C.F.R. § 435.725(cX4). Thi~ would have reduced the share or costs of
long-term care thaI these persons are required to bear. See id. § 435.832. By the same token,
this would result in a higher payment by the State to the long-term care providers, and thus, a
higher FFP contribuTion. In this way, the FFP not comributt:d to Pan B premium payments
made by the State would have been paid in the form of a greater Federal contribution to the cost
of care provided to these dual eligibles.

The foregoing describes conceptually why it would not be equitable to pursue the FFP refunding
in this case. The actual operation in Arizona's case is somewhat more complicated because
virtually all services are provided through managed care plans. This means that FFP is nOI paid
for speci fic services rendered 10 Medicaid recipients, but rather as the federal share of capitation
payments that cover the cost of all the care provided to enrolled recipients. But the net effect of
having the dual eligibles pay their own Pan B premiums is the same. The capitation rates are
established hased on the anticipated payments to be made to thc panicipating providers. Like the
case posited above, health plan payments for long-tenn carc and thus, capitation payments, in
which the federal government shares, would be higher due to the reduced share paid by
recipients who are bearing the cost of their Part B coverage.

Accordingly. Arizona does not think it right that it should be penalized when it was entitled to
rely upon guidance previously provided by CMS (which the Departmental Appeals Board has
consistently held that states should follow), and there has been little to no real adverse financial
impact on the federal government. In these circumstances, it would not be appropriate for
Arizona to refund the amounts at issue. Additionally. in an effon to clear up the ambiguity of
CMS directives related to this issue. on October 21, 2011, the Secretary approved a
demonstration project for Arizona that includes expenditure authority that allows it to claim FFP
for cost of Medicare Part B premiums paid on behalf of non-Qualified Medicare Beneficiaries
(QMB) who are dually eligible for Medicare and Medicaid ""ith incomes up to 300 percent of the
Federal Benefit Rate.

Recommendation 2: review claims fnr Part B pn:mioms paid before our audit period and refund
the Federal share of any unallowable amounts claimed.

Response: We do not concur for the reasons expressed in the response to Recommendation I.

Should you or your staff have any questions regarding this response, please fccl free to contact
J im Cockerham at (602) 417-4059.

~rely ,

   i "___
  ) -'//7}
              A               "­
                                ,
Thomas J    Be~        \..J
Director
